In The
Supreme Court of the United States

Paul Cook
Petitioner,
v.
The State of California
Respondent.

PROOF OF SERVICE
I, Greg S. Tuttle, do swear or declare that on this date, November 5, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI and Aon each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by electronically serving them by
electronic service, which is mandated by California Emergency Rule 12.
The names and addresses of those served are as follows:
Name

Email Address

Los Angeles County District
Attorney, Appellate Unit
California Attorney General - Los
Angeles Office

appellate.nonurgent@da.lacounty.gov
Dana.ali@doj.ca.gov

A courtesy copy of the writ of cert has also been served on the following
parties:
Name
Email Address
California Supreme Court

e-submission on Supreme Court
'
Website

Court of Appeal, Second District,

Kar1a.Dominguez@iud.ca.gov

26

*.'•
4 a *

■; '

*

Division 5
Appellate Division of the Los
Angeles Superior Court
Trial Court Judge - Rob B. Villeza

Lpd^S~Tuttle
G

27

lstuart@lacourt.org
rvilleza@lacourt.org

In The
Supreme Court of the United States

Paul Cook
Petitioner,
v.
The State of California
Respondent.

i

PROOF OF SERVICE
I, Greg S. Tuttle, do swear or declare that on this date, November 7, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF
CERTIORARI, and Amended Proof of Service and on each party to the above
proceeding or that party’s counsel, and on every other person required to be
served, by electronically serving them by electronic service, which is mandated
by California Emergency Rule 12.
The names and addresses of those served are as follows:
Name

Email Address

Los Angeles County District
Attorney, Appellate Unit
California Attorney General - Los
Angeles Office

appellate.nonurgent@da.lacounty.gov
docketinglaawt@doj.ca.gov,

On November 5, 2020 to the following party was served the MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF.
Name

Email Address

A

Los Angeles County District
Attorney, Appellate Unit

appellate.nonurgent@da.lacountv.gov

A courtesy copy of the above documents were served on Nov. 5, 2020.

California Supreme Court

e-submission on Supreme Court
Website

Court of Appeal, Second District,
Division 5

Karla.Dominguez@iud.ca.gov

Appellate Division of the Los
Angeles Superior Court
Trial Court Judge - Rob B. Villeza

lstuart@lacourt.org
rvilleza@lacourt.org

◄

I

J

